.,~ ~
( t:
~..
  '",

    ;,.t'~IlQ
 ~'~4'''VIC£S.ÚS.
                         DEPARTMENT OF
                         DEPARTMENT OF HEALTH
                                       HEALTH &.
                                              &. HUMAN SERVICES                                                   Office of
                                                                                                                  Office of Inspector General


                                                                                                                  Washington,
                                                                                                                                      General


                                                                                                                              D.C. 20201

                                                                                                                  Washington, D.C. 20201




                                                                      DEC - 88 2008
                                                                      DEC -    208


                    TO:              Kerry
                                     Kerr  Weems
                                     Acting Administrator
                                   ~cente;7edCaid         Servces



                                   ~
                                     cente;7ediCaid          Services

                    FROM:                        E. Vengrin
                                           oseph E. Vengrn
                                          Deputy Inspector General for Audit Services


                    SUBJECT:
                    SUBJECT: Review of
   Review of High-Dollar Payments for Inpatient Services Processed by First Coast
                                                  Options, Inc.,
                                          Service Options, Inc., for
                                                                 for the
                                                                      the Period
                                                                          Period January
                                                                                  Januar 1,1,2004,
                                                                                             2004, Through
                                                                                                   Through December
                                                                                                           December 31,
                                          2005
                                          2005 (A-04-07-06020)
                                               (A-04-07-06020)




                    Attached is an advance copy of  of our final report on high-dollar payments for inpatient services
                    processed by First Coast Service
                                                Service Options, Inc. (First Coast),
                                                                             Coast), for
                                                                                     for the period January 1,1, 2004,
                    through December 31, 31, 2005.
                                             2005. These
                                                    These claims
                                                            claims were submitted by providers
                                                                                       providers in
                                                                                                  in Florida.
                                                                                                     Florida. We will
                                      to First Coast
                    issue this report to       Coast within
                                                     within 55 business
                                                                business days.
                                                                         days. This audit was
                                                                                           was part
                                                                                               par of
                                                                                                    ofaa nationwide
                    review of
                            of excessive payments for inpatient services of of $200,000
                                                                               $200,000 oror more (high-dollar
                                                                                                  (high-dollar payments).

                    Our objective was to determine whether high-dollar Medicare payments that First Coast made to
                    hospitals for inpatient services were appropriate.

                    Of
                    Of   the 199 high-dollar payments that First Coast made to hospitals for inpatient services for
                    calendar years 2004 and 2005, 74 were appropriate.       appropriate. The
                                                                                            The remaining
                                                                                                 remaining 125
                                                                                                             125 payments included
                    overpayments totaling
                    overpayments            totaling $1,651,968,
                                                          $1,651,968, which
                                                                        whichhadhadnot
                                                                                     notbeen
                                                                                         beenrepaid
                                                                                                repaidby
                                                                                                       bythe
                                                                                                          thestart
                                                                                                               star of
                                                                                                                    of our
                                                                                                                       our audit.
                                                                                                                           audit. Contrary
                    to Federal guidance, hospitals reported units            unts of
                                                                                  ofservice
                                                                                      service inaccurately
                                                                                               inaccurately and
                                                                                                             and reported excessive
                    charges that
                    charges       that resulted
                                         resulted in   in inappropriate
                                                           inappropriateoutlier
                                                                           outlierpayments.
                                                                                   payments. Hospitals
                                                                                                 Hospitalsattributed
                                                                                                           attrbuted most
                                                                                                                       most ofthe incorrect
                    claims to clerical errors, conversion of the
                    claims to clerical errors, conversion of
               the pharmacy
                                                                                pharacy system
                                                                                            system from
                                                                                                    from dispensing     unts to
                                                                                                          dispensing units   to billing
                                                                                                                                billing
                    unts,
                    units, or oroutdated
                                   outdatedbilling
                                                 billing systems.
                                                             systems. First
                                                                       FirstCoast
                                                                             Coastmade
                                                                                    madethese
                                                                                           theseincorrect
                                                                                                  incorrect payments
                                                                                                            payments because
                                                                                                                        because neither the
                    Fiscal Intermediary Standard System nor the Common Working File had sufficient edits in place
                    to detect and prevent the overpayments.

                    We recommend that First Coast recover the $1,651,968 in identified overpayments, use the
                    results of
                            of this audit in its provider education activities, and consider implementing controls to
                    identify and review all payments greater than $200,000 for inpatient services.

                    In written comments on our draft report, First Coast agreed to initiate recovery procedures for the
                                         identified. First
                    overpayments that we identified. First Coast
                                                           Coast stated
                                                                  stated that
                                                                         that itit was
                                                                                   was redesigning its education
Page 2 – Kerry Weems


materials to strengthen their effectiveness and that it would work with the Centers for Medicare
& Medicaid Services to implement an edit for payments greater than $200,000.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-07-06020.


Attachment
~SII.VJC''',f.~
                                 DEPARTMENT OF
                                 DEPARTMENT OFHEALTH
                                               HEALTHAND
                                                      ANDHUMAN
                                                         HUMANSERVICES
                                                               SERVICESOffceOffice
                                                                             of Inspector     General
                                                                                   of Inspector General




(Jt
                                                                                                                   Offce of Audit Services
                                                                                                                   Office         Services



,-!
  '~..al-
                                                         DEC
                                                         DEC 11 11 2008

                                                                   2008
                                                                                                           61
                                                                                                           61 Forsyth
                                                                                                                       REGION
                                                                                                                       REGION IV
                                                                                                                              IV
                                                                                                              Forsyth Street, S.W., Suite 3141
                                                                                                                Atlanta,
                                                                                                                 Atlanta, Georgia 30303
                                                                                                                                          3T41




       Report Number:
       Report Number: A-04-07-06020

       Ms. Sandy
            Sandy Coston
                   Coston

       President
       First Coast Service
                   Service Options,
                           Options, me.
                                    Inc.
       532 Riverside Avenue,
       532            Avenue, 20 T
       Jacksonville, Florida
       Jacksonville, Florida 32202

       Dear
       Dear Ms. Coston:
            Ms. Coston:



       Enclosed
       Enclosed is the is
                       U.S.the  U.S.of Department of Health
                            Deparment                                    andServices
                                                             Health and Human Human   (HHS),Services
                                                                                             Offce of
   (HHS), Office ofmspector
                                                                                                                          Inspector
       General
       General (OIG),(DIG),     final
                      final report       report
                                   entitled "Review entitled
                                                    of 
     "Review of High-Dollar Payments for Inpatient         mpatient Services
       Processed by First Coast       Coast Service
                                                Service Options,
                                                           Options, me.,Inc., for
                                                                               forthethePeriod
                                                                                            PeriodJanuary
                                                                                                       Januar 1, 2004, Through
                                                                                                              1,2004,
       December 31,2005."31,2005."
       December                             Weof
will forward a copy of this report to the HHS action official noted on
                          We wil forward a copy

       the following
             following page  page for for review
                                            reviewand   and any
                                                            any action
                                                                  action deemed          necessar.
                                                                            deemed necessary.

       The HHS action official
                         offcial will
                                 willmake
                                      makefinal
                                             final determination
                                                    determination as
                                                                   as to
                                                                       to actions
                                                                          actions taken
                                                                                   taken on
                                                                                          on all
                                                                                             all matters
                                                                                                 matters reported.
                        you respond
       We request that you   respond to
                                      to this
                                         this official
                                              offcial within 30 days from the date  date of
                                                                                         of this
                                                                                            this letter.
                                                                                                 letter. Your
       response should present any comments or additional
                                                      additional information   that  you  believe  may have a
       bearng
       bearing on
               on the
                  the final
                      final determination.
                            determination.

       Pursuant to the principles of the
       Pursuant to the principles of theFreedom
                                          Freedom
                                                of 
     Information Act,
                                                      ofmformation     Act,S5 U.S.C. §552,
                                                                                       §552, as
                                                                                              as amended
                                                                                                 amended by
       Public Law 104-231, OIGDIG reports generally
                                             generally are
                                                         are made available
                                                                    available to
                                                                              to the
                                                                                 the public to the extent
                                                                                                   extent the
       information is not subject to
                                  to exemptions
                                      exemptions in  in the
                                                        the Act
                                                             Act (45
                                                                  (45 CFR
                                                                      CFRpart
                                                                           par 5). Accordingly,
                                                                                     Accordingly, this
                                                                                                   this report
       will be posted
               posted on the Internet
                             mtemet at at http://oig.hhs.gov.
                                          http://oig.hhs.gov.

       If
       If you have any questions or comments
                                    comments about
                                               about this report, please do not hesitate to call me, or
       contact Mary Arm
                     An Moreno,
                         Moreno, Audit Manager,atat(404)
                                  Audit Manager,        (404)562-7770
                                                              562-7770 or
                                                                        orthrough
                                                                           through e-mail
                                                                                   e-mail atat
       Mary.Moreno(ioig.hhs.gov.
       Mary.Moreno@oig.hhs.gov. Please
                                     Pleaserefer
                                            refertotoreport
                                                      reportnumber
                                                             numberA-04-07-06020
                                                                    A-04-07-06020 in in all
       correspondence.

                                                                 Sincerely,
                                                                 Sincerely,

                                                                 rF~9($~
                                                                 Peter J. Barbera
                                                                 Regional Inspector
                                                                           mspector General
                                                                                      General
                                                                  for Audit Services
                                                                             Services


      Enclosure
      Enclosure
Page 2 – Ms. Sandy Coston


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 




   REVIEW OF HIGH-DOLLAR 

   PAYMENTS FOR INPATIENT 

 SERVICES PROCESSED BY FIRST 

 COAST SERVICE OPTIONS, INC.,

       FOR THE PERIOD 

  JANUARY 1, 2004, THROUGH 

     DECEMBER 31, 2005 





                    Daniel R. Levinson

                     Inspector General 


                      December 2008

                      A-04-07-06020

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS’s Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges based on the diagnosis-related group to which a beneficiary’s stay is
assigned. The “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1,
requires that hospitals submit claims on the appropriate forms for all provider billings, and
Chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

The diagnosis-related group payment is, with certain exceptions, payment in full to the hospital
for all inpatient services. Section 1886(d)(5)(A)(ii) of the Act provides for an additional
payment, known as an outlier payment, to hospitals for cases incurring extraordinarily high costs.

During calendar years 2004 and 2005, First Coast Service Options, Inc. (First Coast), was the
fiscal intermediary in Florida. First Coast processed approximately 1.6 million inpatient claims
during this period, 199 of which resulted in payments of $200,000 or more (high-dollar
payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that First Coast made to
hospitals for inpatient services were appropriate.

SUMMARY OF FINDING

Of the 199 high-dollar payments that First Coast made to hospitals for inpatient services for
calendar years 2004 and 2005, 74 were appropriate. The remaining 125 payments included
overpayments totaling $1,651,968, which had not been repaid by the start of our audit.

Contrary to Federal guidance, hospitals reported units of service inaccurately and reported
excessive charges that resulted in inappropriate outlier payments. Hospitals attributed most of
the incorrect claims to clerical errors, conversion of the pharmacy system from dispensing units
to billing units, or outdated billing systems. First Coast made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in place to
detect and prevent the overpayments.



                                                 i
RECOMMENDATIONS

We recommend that First Coast:

    •   recover the $1,651,968 in identified overpayments,

    •   use the results of this audit in its provider education activities, and

    •   consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

FIRST COAST SERVICE OPTIONS COMMENTS

In written comments on our draft report, First Coast agreed to initiate recovery procedures for the
overpayments that we identified. First Coast stated that it was redesigning its education
materials to strengthen their effectiveness and that it would work with CMS to implement an edit
for payments greater than $200,000. The complete text of First Coast’s comments is included as
the Appendix.




                                                  ii
                                                   TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION................................................................................................................1

     BACKGROUND .............................................................................................................1
       Medicare Fiscal Intermediaries..................................................................................1
       Claims for Inpatient Services.....................................................................................1
       First Coast Service Options, Inc. ...............................................................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
       Objective ...................................................................................................................2
       Scope..........................................................................................................................2
       Methodology ..............................................................................................................2

FINDING AND RECOMMENDATIONS.........................................................................3

     FEDERAL REQUIREMENTS........................................................................................3

     INAPPROPRIATE HIGH-DOLLAR PAYMENTS .......................................................3

     CAUSES OF OVERPAYMENTS...................................................................................4

     RECOMMENDATIONS.................................................................................................4

     FIRST COAST SERVICE OPTIONS COMMENTS .....................................................4

APPENDIX

     FIRST COAST SERVICE OPTIONS COMMENTS




                                                                      iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part A claims submitted by hospitals. The intermediaries’ responsibilities include determining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Intermediaries use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF) to process hospitals’ inpatient claims. The CWF can detect certain
improper payments during prepayment validations.

In calendar years (CY) 2004 and 2005, fiscal intermediaries processed and paid approximately
27 million inpatient claims, 5,125 of which resulted in payments of $200,000 or more (high-
dollar payments).

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment
in full to the hospital for all inpatient costs associated with the beneficiary’s stay. The “Medicare
Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires that hospitals
submit claims on the appropriate forms for all provider billings, and Chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for an additional Medicare payment, known as an
outlier payment, to hospitals for cases incurring extraordinarily high costs. 1 The fiscal
intermediary identifies outlier cases by comparing the estimated costs of a case with a DRG-
specific fixed-loss threshold. 2 To estimate the cost of a case, the fiscal intermediary uses the
Medicare charges that the hospital reports on its claim and the hospital-specific cost-to-charge
ratio. Inaccurately reporting charges could lead to excessive outlier payments.




1
 Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s inpatient stay
substantially exceed the DRG payment.
2
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.


                                                         1
First Coast Service Options, Inc.

During our audit period (CYs 2004 and 2005), First Coast Service Options, Inc. (First Coast),
was the fiscal intermediary in Florida. First Coast processed approximately 1.6 million inpatient
claims during this period, 199 of which resulted in high-dollar payments.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that First Coast made to
hospitals for inpatient services were appropriate.

Scope

We reviewed the 199 high-dollar payments, which totaled $56,867,792, for inpatient claims that
First Coast processed during CYs 2004 and 2005. We limited our review of First Coast’s
internal controls to those controls applicable to the 199 high-dollar claims because our objective
did not require an understanding of all internal controls over the submission and processing of
claims. Our review allowed us to establish reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

We performed our fieldwork from April 2007 through May 2008. Our fieldwork included
contacting First Coast, located in Jacksonville, Florida, and the hospitals that received high-
dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify inpatient claims with high-dollar
        Medicare payments;

   •    reviewed available CWF claim histories for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by revised claims and
        whether payments remained outstanding at the time of our fieldwork;

   •    contacted the hospitals that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect and
        whether the hospitals agreed that refunds were appropriate; and

   •    validated with First Coast that partial overpayments occurred and refunds were
        appropriate.


                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

Of the 199 high-dollar payments that First Coast made to hospitals for inpatient services for
CYs 2004 and 2005, 74 were appropriate. The remaining 125 payments included overpayments
totaling $1,651,968, which had not been repaid by the start of our audit.

Contrary to Federal guidance, hospitals reported units of service inaccurately and reported
excessive charges that resulted in inappropriate outlier payments. Hospitals attributed most of
the incorrect claims to clerical errors, conversion of the pharmacy system from dispensing units
to billing units, or outdated billing systems. First Coast made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in place to
detect and prevent the overpayments.

FEDERAL REQUIREMENTS

The “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires
that hospitals submit claims on the appropriate forms for all provider billings, and Chapter 1,
section 80.3.2.2, requires that claims be completed accurately to be processed correctly and
promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS provides
for these additional payments, as specified in 42 CFR § 412.80, to hospitals for covered inpatient
hospital services furnished to a Medicare beneficiary if the hospital’s charges, as adjusted by the
hospital-specific cost-to-charge ratio, exceed the DRG payment for the case.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

First Coast made overpayments totaling $1,651,968 for 125 payments, which hospitals had not
refunded prior to the start of our audit. Hospitals received these overpayments by reporting
excessive units of service and excessive charges that resulted in inappropriate outlier payments.
The following examples illustrate the high-dollar overpayments:

   •   A hospital billed 323 excessive units of service because it did not document some of the
       units in the medical records, did not credit unused medication back to the patient’s
       account, and made a clerical error. As a result, First Coast paid the hospital $202,147
       when it should have paid $189,968, a $12,179 overpayment.




                                                 3
    •    A hospital billed 199 excessive units of service because of a pharmacy computer system
         conversion error. As a result, First Coast paid the hospital $344,722 when it should have
         paid $67,553, an overpayment of $277,169.

CAUSES OF OVERPAYMENTS

Hospitals attributed most of the incorrect claims to clerical errors, conversion of the pharmacy
system from dispensing units to billing units, or outdated billing systems. First Coast made the
incorrect payments because neither the Fiscal Intermediary Standard System nor the CWF had
sufficient edits in place to detect and prevent the overpayments. In effect, CMS relied on
hospitals to notify the fiscal intermediaries of excessive payments and on beneficiaries to review
their “Explanation of Medicare Benefits” and disclose any overpayments. 3

RECOMMENDATIONS

We recommend that First Coast:

     •   recover the $1,651,968 in identified overpayments,

     •   use the results of this audit in its provider education activities, and

     •   consider implementing controls to identify and review all payments greater than
         $200,000 for inpatient services.

FIRST COAST SERVICE OPTIONS COMMENTS

In its October 8, 2008, written comments on our draft report, First Coast agreed to initiate
recovery procedures for the overpayments that we identified. First Coast stated that it was
redesigning its education materials to strengthen their effectiveness and that it would work with
CMS to implement an edit for payments greater than $200,000. The complete text of First
Coast’s comments is included as the Appendix.




3
 The fiscal intermediary sends an “Explanation of Medicare Benefits” notice to the beneficiary after the hospital
files a claim for Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                          4
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
